    August 10, 2006




 Oversight Review
Report on Quality Control Review of the
FY 2004 Single Audit of American Society
for Engineering Education
(Report No. D-2006-6-005)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of
  Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or
  fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN 664-
  8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                     OAIG-APO
                    Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 1016)
                              Arlington, VA 22202-4704




Acronyms

AICPA                 American Institute of Certified Public Accountants
ASEE                  American Society for Engineering Education
DCAA                  Defense Contract Audit Agency
GAS                   Government Auditing Standards
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
Management Comments and APO Response. Langan Associates, PC, was acquired by
Larson, Allen, Weishair & Co., LLP, (LarsonAllen) effective May 1, 2006. LarsonAllen
management concurred with the recommendation to redo the FY 2004 single audit at no
additional costs to address all reported findings though they believed that the audit met
minimum documentation requirements to demonstrate compliance with professional
standards and OMB Circular A-133 audit requirements. However they did not provide
additional information for our review to cause us to change our conclusions. We will
perform a follow-up review to determine the adequacy of the re-performed audit
procedures. Comments from the Chief Financial Officer, American Society for
Engineering Education were responsive. Management comments and the evaluation
responses are discussed in the recommendation section and are included in its entirety at
the end of this report.




                                           2
Findings
Finding A. Review of Internal Control and Compliance over Financial Reporting.
The Langan auditors did not adequately obtain an understanding of internal control over
financial reporting for the FY 2004 single audit. The auditors did not document who they
interviewed at ASEE, and although they checked positive responses to a checklist on
internal controls, they did not document descriptions of any procedures or processes in
place at ASEE for the four components of internal control to support the responses. In
addition, the auditors did not perform audit procedures for the fifth component of internal
control for Control Activities to determine whether ASEE had the policies and
procedures to ensure that the necessary actions are taken to address risks to achieving
ASEE’s objectives. The auditors also did not obtain an understanding of internal control
over compliance with contract provisions and laws and regulations that could have a
direct and material effect on the determination of financial statement amounts.

GAS, which incorporates the American Institute of Certified Public Accountants auditing
standards, requires that in obtaining an understanding of controls that are relevant to audit
planning, the auditor should perform procedures to obtain sufficient knowledge about the
design of the relevant controls for each of the five internal control components and
determine whether they have been placed in operation. In making a judgment about the
understanding of internal control necessary to plan the audit, the auditor should also
consider information system control risks that could result in misstatements. The auditor
should document the understanding of the entity’s internal control obtained to plan the
audit.

The auditors also did not gain an understanding of the information system for financial
reporting (the financial reporting system) for the accounts or transaction class determined
to be significant. An account or transaction class is considered significant based on some
of the following factors: 1) relative significance of the account or related transactions to
the overall financial statements; 2) volume of transactions flowing through the account
during the period; and 3) the susceptibility of the account to fraud, including both
misappropriation of assets and fraudulent financial reporting. The auditors considered
the following accounts to be significant:

   •   Cash

   •   Investments

   •   Support and related receivables

   •   Program service fees, revenue, and receivables

   •   Expenses and accounts payable

   •   Net assets

   •   Payroll

   •   Federal grant programs




                                             3
After determining which accounts were significant, the auditors were required to
document their understanding of the flow of information through the financial reporting
system for each account or audit area. Although the auditors noted “Not Applicable” on
their audit planning form for internal controls, and thus did not obtain an understanding
of the information flow through the financial reporting system, they concluded that the
system provided reasonable assurance that the accounting records were complete and
included all significant transactions. We were unable to determine whether the
conclusions in the auditors’ report on internal control and compliance over financial
reporting, based on the audit of the financial statements, can be relied upon by Federal
agencies.

Finding B. Review of Major Federal Programs. The Langan auditors did not perform
adequate audit procedures for internal control and compliance and did not report a
noncompliance for the major Federal programs.

        Review of Internal Control over Compliance. The Langan auditors did not
obtain an understanding of the five components of internal control for each of the
applicable compliance requirements for the major Federal programs and did not plan or
perform the testing of internal control to support a low assessed level of control risk.

OMB Circular A-133 requires the auditor to obtain an understanding of internal control
over compliance for Federal programs sufficient to plan the audit to support a low
assessed level of control risk. OMB Circular A-133 also requires the auditor to plan the
testing of internal control over compliance for the major Federal programs to support a
low assessed level of control risk and to perform the testing of internal controls as
planned. If internal control is deemed likely to be ineffective, the auditor has to assess
risk at the maximum and consider whether any additional compliance tests are required
and report this as a reportable condition, including whether such condition is a material
weakness, as part of the audit findings. The AICPA Audit Guide states that the auditor
should document his or her understanding of the auditee’s internal control and the basis
for his or her conclusions about the assessed level of control risk. If the auditor has not
performed tests of controls relevant to certain requirements or programs, the auditor
should document the rationale for omitting such tests.

According to the audit supervisor, the audit approach for the audit of major Federal
programs was the same as the audit approach taken for the audit of the financial
statements, which placed minimal reliance on internal controls and assessed risk at the
maximum as the basis for not testing internal controls. The auditors assessed control risk
at the maximum for the financial statement audit because they believed that the cost of
evaluating the effectiveness of internal control would exceed the savings from reduced
substantive testing. The auditors failed to recognize that although control risk can be
assessed at the maximum under a financial statement audit because the auditor believes
that evaluating the effectiveness of internal control is inefficient, the auditor cannot apply
this rationale to an audit of the major Federal program. Under an audit of the major
Federal program, the auditor can only assess risk at the maximum if internal controls are
deemed likely to be ineffective based on the understanding and test of controls not
because evaluating their effectiveness would be inefficient.




                                              4
        Review of Compliance with Program Requirements. The Langan auditors did
not adequately perform and document the audit procedures to test compliance with the
compliance requirements determined to be applicable by the auditors for the FY 2004
single audit.

GAS requires that work papers contain sufficient information to enable an experienced
auditor with no previous connection with the audit to ascertain the evidence that supports
an auditor’s significant conclusions and judgments. Work papers should contain
objectives, scope, and methodology, as well as any sampling criteria used. The work
papers should also document the work performed, including descriptions of transactions
and records examined, that would enable an experienced auditor to examine the same
transactions and records.

                Activities Allowed or Unallowed and Allowable Costs/Cost Principles.
The auditors did not adequately document the work performed to provide sufficient
evidence to support their opinion on compliance with the Activities Allowed or
Unallowed and the Allowable Costs/Cost Principles compliance requirements. Of the
$30.7 million that ASEE received in Federal awards for FY 2004, approximately
$28 million was used to pay participant stipends and tuition expenses. Although the
auditors selected transactions from stipends and tuition expenses, among other expenses,
to test compliance, the documentation for the testing did not include descriptions of the
audit procedures performed, the specific criteria used to determine allowability, or the
documentation reviewed to support their conclusions. As a result, we could not assess
the adequacy of the audit procedures performed.

               Cash Management. The auditors performed some procedures to test
compliance with Cash Management by determining whether interest earned was returned
to the Federal government. However, the auditors did not perform any audit procedures
to determine whether there were any established procedures to minimize the time
elapsing between the drawdown and disbursement of funds or if the established
procedures were followed as specified in the Compliance Supplement.

                Eligibility. The auditors did not perform adequate audit procedures to test
compliance with the Eligibility compliance requirement. In addition, the documentation
did not provide specific information on the audit procedures they performed to test
compliance with the requirement. Although the documentation listed certain minimum
application requirements, such as the application form, school transcripts, research
proposal, reference evaluation forms, and graduate record examinations, it did not
describe the test objectives that the auditors were trying to achieve. Based on the
information in the documentation, it appears that the auditors were only verifying
whether the approved applicants had all of the required documents in their application
package; this procedure alone is insufficient for the auditors to determine whether the
approved applicants are indeed eligible and to conclude that ASEE is in compliance with
the requirement. The auditors’ compliance testing did not include the review criteria that
the ASEE review panel used to screen the applicants for eligibility, nor did it include
testing procedures to determine ASEE’s compliance in ensuring that approved applicants
continue to be eligible in subsequent years.




                                             5
                Period of Availability. The auditors did not perform adequate audit
procedures to test compliance with the Period of Availability compliance requirement.
The audit documentation did not describe audit procedures performed or the
documentation reviewed to support their conclusion that Federal funds were used during
the authorized period of availability. In addition, the auditors referred to the substantive
testing performed for the Activities Allowed or Unallowed, Allowable Costs/Cost
Principles, and the Eligibility compliance requirements as evidence of their compliance
testing for the Period of Availability compliance requirement. Because the auditors
judgmentally selected transactions from the major Federal programs to test for allowable
costs and eligibility, it is inappropriate for them to use the same transactions to test the
Period of Availability compliance requirement without performing a further analysis of
the transactions. The auditors should have determined whether the transactions selected
were appropriate for testing the objectives of the period of availability requirement. For
example, transactions from contracts or grants where work was to be completed by fiscal
year end should have been selected to be able to test to the attributes of the requirement.

                Reporting. The auditors did not perform adequate audit procedures to test
and document compliance with the Reporting compliance requirement. Even though the
auditors indicated that they performed compliance testing on the financial reports by
documenting that they traced the expenses back to the general ledger, there was no
further description of which expenses were reviewed or which general ledger accounts
the expenses were traced to.

In addition, the auditors documented that compliance testing was not required on the
performance and special reports because the reports did not contain quantifiable data as
stated in the Compliance Supplement. However, our review of the contracts with the Air
Force showed that some of the required nonfinancial reports contain quantifiable data that
the auditors should have tested for compliance. Some of these reports require
information such as the number of students who have accepted or rejected offers, student
academic progress reports, a list of fellows who completed the program tenure or whether
they intend to complete their post doctorate degrees, and a list of fellows who dropped
out of the program.

Finding C. Reporting a Noncompliance Issue. During their audit, the auditors found
that ASEE transferred $550,000 in stipend payments for contract 99-C-0054 to
contract 02-C-0041 because the funding period for contract 99-C-0054 had expired.
Correspondence between ASEE and the funding agency showed that the funding agency
advised ASEE that the $550,000 expense belonged to contract 99-C-0054 because the
participants who received the stipends were not budgeted under the new contract 02-C-
0041. However, the auditors concluded that this did not result in a finding because both
contracts had the same Catalog of Federal Domestic Assistance number and were
therefore considered the same program for A-133 purposes. The auditors also
documented that ASEE planned to immediately correct the error in the accounting
records and financial reports filed with the funding agency.

Both contracts having the same Catalog of Federal Domestic Assistance number is not a
valid reason for not reporting this as a finding. While both contracts fall under the same
Federal assistance program, each contract has its own requirements and funding
authority. The auditors should have reported the noncompliance as a finding on the
Schedule of Findings and Questioned Costs for violating contract terms and conditions by
using funds from one contract to cover expenses for another contract. Furthermore, there
was no documentation to indicate that the auditors performed additional audit procedures


                                             6
to determine whether this was an isolated incident of mischarging or whether it was a
broader systemic problem, and what impact that may have had on their audits of the
financial statements and the major Federal programs.

Finding D. Review of the Summary Schedule of Prior Audit Findings. The Langan
auditors did not perform adequate audit procedures to assess the reasonableness of the
Summary Schedule of Prior Audit Findings. Although there was no central working
paper to show the audit coverage on the Summary Schedule of Prior Audit Findings, the
audit supervisor prepared a document referencing different work papers as evidence that
the auditors performed those procedures.

A finding from the previous year stated that ASEE did not have procedures in place to
ensure that it is not conducting business with vendors that have been debarred or
suspended by the Federal government. The audit supervisor referred to their compliance
testing for the Procurement, Suspension and Debarment compliance requirement where
the auditors documented that ASEE reviewed the Government list of debarred and
suspended contractors and had a contractor provide a written statement declaring that
they are not debarred from doing Federal work. Although the compliance testing in the
current year showed that ASEE complied with the requirement, the auditors did not
determine whether ASEE established written policies to ensure that responsible staff
follow the procedures on a regular basis to prevent doing business with debarred or
suspended contractors.

The other finding from the previous year stated that ASEE did not submit an indirect cost
proposal or request an extension within 6 months after the close of the 2002 fiscal year;
however, none of the work papers referred to by the audit supervisor provided any
support that the auditors performed audit procedures to assess the reasonableness or
status of corrective action taken. Some documentation in the work paper files shows that
ASEE requested and was approved an extension by the administrative contracting officer
for submitting the FY 2003 incurred cost submission. Nevertheless, the auditors did not
perform audit procedures to determine whether ASEE had established written policies
and procedures to ensure that the incurred cost submissions are submitted timely to avoid
frequent extension requests or that extension requests be requested within 6 months.

Finding E. Schedule of Expenditures of Federal Awards and Data Collection Form.
ASEE did not prepare the Schedule of Expenditures of Federal Awards in accordance
with the requirements of OMB Circular A-133. ASEE did not clearly present Federal
awards received as a subrecipient as pass-through funds on its FY 2004 Schedule of
Expenditures of Federal Awards. Consequently, the Langan auditors did not properly
complete Part III, Item 9, of the Data Collection Form because all Federal awards were
indicated as direct awards.

Other Matters of Interest. The Langan auditors did not coordinate the FY 2004 ASEE
single audit with the Defense Contract Audit Agency (DCAA). Between November 2003
and March 2004, DCAA issued six final reports to ASEE on the billing and accounting
systems, incurred cost audit, floorcheck, provisional billing rates, and a modified
financial condition risk assessment. The Langan auditors should coordinate future single




                                            7
audits with DCAA to achieve comprehensive and cost-effective audits in accordance with
GAS and OMB Circular A-133.

Summary. The Langan Associates, PC, audit work did not meet the requirements of
OMB Circular A-133, the related Compliance Supplement, and GAS. As a result,
Federal agencies and pass-through entities cannot rely on the audit report for assurance
that ASEE is managing Federal awards in compliance with laws, regulations, and award
provisions.

Langan Associates lacked an understanding of the single audit requirements. Personnel
engaged in these audits need additional training on GAS and OMB Circular A-133.
Because of the deficiencies discussed in this report, we conclude that the audit was not
adequately supervised and that proper supervision is needed to conduct the audit in
accordance with GAS and OMB Circular A-133 requirements.




                                            8
Recommendations
  1. We recommend that the Chief Financial Officer, American Society for
     Engineering Education:

         a. Direct Langan Associates, PC, to redo the single audit of the American
            Society for Engineering Education for the fiscal year ended September 30,
            2004, to correct the deficiencies identified in this report at no additional
            cost to the Government.

         b. Notify the DoD Office of Inspector General when Langan Associates, PC,
            provides the revised reporting package to the American Society for
            Engineering Education so that we can perform a follow-up quality control
            review before submitting the revised FY 2004 single audit reporting
            package to the Federal Audit Clearinghouse.

         c. Identify as unallowable any costs associated with the audit services
            provided by Langan Associates, PC, for the FY 2004 single audit until the
            audit is performed in accordance with OMB Circular A-133 and
            government auditing standards.

         d. Revise the Schedule of Expenditures of Federal Awards according to the
            requirements of Office of Management and Budget Circular A-133 and
            provide the corrected Schedule to Langan Associates, PC, to perform the
            additional audit procedures necessary for the FY 2004 Office of
            Management and Budget Circular A-133 audit.

         ASEE Comments. ASEE management stated that Langan Associates, PC
         was acquired by another firm, LarsonAllen on May 1, 2006. LarsonAllen has
         agreed to redo the FY 2004 single audit at no cost to the government. ASEE
         expects the audit to be completed in the fall of 2006 and will forward a copy
         to the DoD Office of Inspector General upon completion. ASEE will also
         revise the Schedule of Expenditures of Federal Awards according to the
         requirements of OMB Circular A-133 and provide to LarsonAllen.

  2. We recommend that the Partner in Charge, Langan Associates, PC:

         a. Redo the single audit of the American Society for Engineering Education
            for the fiscal year ended September 30, 2004, at no additional cost to the
            Government and revise the reporting package to reflect, at a minimum, the
            date that the work is completed. The audit procedures should address the
            deficiencies identified in this report and be performed in accordance with
            the requirements of Office of Management and Budget Circular A-133 and
            Government auditing standards. The revised reporting package should be
            provided to the American Society for Engineering Education.

         LarsonAllen Comments. Langan Associates (LarsonAllen) management
         believed that their workpapers complied with the minimum level of
         documentation required by professional standards. In addition, they believed
         that their audit complied with professional standards and the requirements of
         OMB Circular A-133. LarsonAllen management also stated that they
         received guidance from a grant program officer to support non-disclosure of a


                                          9
corrected item of non-compliance. However, LarsonAllen concurred with the
recommendation and agreed to reperform the FY 2004 single audit of ASEE
to address all findings and recommendations and revise the reporting package
and the Data Collection Form at no additional cost. For future audits,
LarsonAllen will modify their audit approach to clearly demonstrate the
testing of internal control and compliance over financial reporting; enhance
work paper documentation; introduce electronic audit programs and take
continuing professional education on OMB Circular A-133 issues; report all
errors and issues of noncompliance in the Schedule of Findings and
Questioned Costs in excess of their calculated level of materiality; include a
summary work paper that clearly documents the conclusions and audit
procedures performed to assess the reasonableness of the Summary Schedule
of Prior Audit Findings; and coordinate more thoroughly with DCAA.

APO Response. With the exception noted in the following paragraph,
LarsonAllen proposed acceptable corrective actions to address the deficiencies
we noted. Although they stated the audit met the auditing standards and OMB
Single Audit requirements, they did not provide additional information or
documentation to cause us to change our conclusions.

In addition, we disagree with the corrective action proposed for Finding C.
“Reporting a Noncompliance Issue.” LarsonAllen stated that they will report
all issues of errors and noncompliance in excess of the calculated level of
materiality. However, the determination to report a finding should be based
on qualitative as well as quantitative factors. Tests of compliance may
disclose instances of noncompliance that may or may not be monetary in
nature. The auditor should consider the nature and frequency of the
noncompliance, the significance of the noncompliance in relation to the
compliance objectives, and whether a reportable condition exists.
Furthermore, regardless of the audit calculated level of materiality, OMB
Circular A-133 requires reporting known or likely questioned costs greater
than $10,000.

We will perform a follow-up review to determine if the additional audit
procedures meet the Government Auditing Standards, OMB Circular A-133
requirements and address all the specific deficiencies cited in Findings A
through D.

b. Obtain formal training for all personnel working on single audits so that
   future audits comply with Government auditing standards and the audit
   requirements of Office of Management and Budget Circular A-133.

LarsonAllen Comments. LarsonAllen management stated that OMB
Circular A-133 training was provided to the staff in March 2006 and that
additional training is scheduled for July 28, 2006. LarsonAllen has a Chief
Learning Officer who aids in providing staff structured learning opportunities
to meet all state licensing and yellow book continuing professional education
requirements.




                                10
Appendix A. Quality Control Review Process
Background, Scope, and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the
financial management of State and local governments and nonprofit organizations by
establishing one uniform set of auditing and reporting requirements for all Federal award
recipients required to obtain a single audit. OMB Circular A-133 establishes policies that
guide implementation of the Single Audit Act and provides an administrative foundation
for uniform audit requirements of non-Federal entities administering Federal awards.
Entities that expend $300,000 ($500,000 for fiscal years ending after December 31, 2003)
are subject to the Single Audit Act and the audit requirements of OMB Circular A-133
and, therefore, must have an annual single or program-specific audit performed under
GAS and submit a complete reporting package to the Federal Audit Clearinghouse.

We reviewed the Langan Associates, PC, audit of the American Society for Engineering
Education for FY 2004 and the resulting reporting package that was submitted to the
Federal Audit Clearinghouse, dated February 22, 2005, using the 1999 edition of the
“Uniform Quality Control Guide for the A-133 Audits” (the Guide). The Guide applies
to any single audit that is subject to the requirements of OMB Circular A-133 and is the
approved President’s Council on Integrity and Efficiency checklist used for performing
quality control reviews. We performed the review from January 2006 through
August 2006. The review focused on the following qualitative aspects of the single audit:

       •   Qualification of auditors

       •   Independence

       •   Due professional care

       •   Planning and supervision

       •   Internal control and compliance testing

       •   Schedule of Expenditures of Federal Awards

       •   Schedule of Findings and Questioned Costs

       •   Summary Schedule of Prior Audit Findings

       •   Data Collection Form




                                           12
Appendix B. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Contracting Officer, Air Force Office of Scientific Research
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Chief, Office of Naval Research
Audit Liaison, Assistant Secretary of the Navy
  Financial Management and Comptroller
Naval Inspector General

Other Federal Agencies
Office of the Inspector General, National Aeronautics and Space Administration
Office of the Inspector General, National Science Foundation

Non-Government Organizations
Board of Directors, American Society for Engineering Education
Finance Committee, American Society for Engineering Education
Chief Financial Officer, American Society for Engineering Education
Principal in Charge, LarsonAllen, LLP
Audit Supervisor, LarsonAllen, LLP

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs



                                           13
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census




                                        14
American Society for Engineering Education
Comments




                      15
16
LarsonAllen Comments




                   17
18
19
20
